<html>
<title> - WOMEN IN MANUFACTURING</title>
<body><pre>[Senate Hearing 113-56]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 113-56
 
                         WOMEN IN MANUFACTURING

=======================================================================


                                HEARING

                               before the

                        JOINT ECONOMIC COMMITTEE

                     CONGRESS OF THE UNITED STATES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 15, 2013

                               __________

          Printed for the use of the Joint Economic Committee




                  U.S. GOVERNMENT PRINTING OFFICE
81-443                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                        JOINT ECONOMIC COMMITTEE

    [Created pursuant to Sec. 5(a) of Public Law 304, 79th Congress]

HOUSE OF REPRESENTATIVES             SENATE
Kevin Brady, Texas, Chairman         Amy Klobuchar, Minnesota, Vice 
John Campbell, California                Chair
Sean P. Duffy, Wisconsin             Robert P. Casey, Jr., Pennsylvania
Justin Amash, Michigan               Mark R. Warner, Virginia
Erik Paulsen, Minnesota              Bernard Sanders, Vermont
Richard L. Hanna, New York           Christopher Murphy, Connecticut
Carolyn B. Maloney, New York         Martin Heinrich, New Mexico
Loretta Sanchez, California          Dan Coats, Indiana
Elijah E. Cummings, Maryland         Mike Lee, Utah
John Delaney, Maryland               Roger F. Wicker, Mississippi
                                     Pat Toomey, Pennsylvania

                 Robert P. O'Quinn, Executive Director
                 Niles Godes, Democratic Staff Director


                            C O N T E N T S

                              ----------                              

                     Opening Statements of Members

Hon. Amy Klobuchar, Vice Chair, a U.S. Senator from Minnesota....     1
Hon. Carolyn B. Maloney, a U.S. Representative from New York.....     3
Hon. Kevin Brady, Chairman, a U.S. Representative from Texas.....     3

                               Witnesses

Ms. Jennifer M. McNelly, President, Manufacturing Institute, 
  Washington, DC.................................................     5
Ms. Darlene M. Miller, President and CEO, Permac Industries, 
  Burnsville, MN.................................................     7
Mrs. Amy Jolley, Vice President-Tax, Noble Energy, Inc., Houston, 
  TX.............................................................     9

                       Submissions for the Record

Prepared statement of Vice Chair Klobuchar.......................    24
    Report: ``Women in Manufacturing''...........................    26
Prepared statement of Chairman Brady.............................    33
Prepared statement of Jennifer M. McNelly........................    34
Prepared statement of Darlene M. Miller..........................    35
Prepared statement of Amy Jolley.................................    37


                         WOMEN IN MANUFACTURING

                              ----------                              


                        WEDNESDAY, MAY 15, 2013

             Congress of the United States,
                          Joint Economic Committee,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:03 a.m. in Room 
216 of the Hart Senate Office Building, the Honorable Amy 
Klobuchar, Vice Chair, presiding, and the Honorable Kevin 
Brady, Chair.
    Representatives present: Brady, Paulsen, Maloney, and 
Delaney.
    Senators present: Klobuchar.
    Staff present: Conor Carroll, Gail Cohen, Sarah Elkins, 
Christina Forsberg, Connie Foster, Niles Godes, Colleen Healy, 
and Robert O'Quinn.

  OPENING STATEMENT OF HON. AMY KLOBUCHAR, VICE CHAIR, A U.S. 
                     SENATOR FROM MINNESOTA

    Vice Chair Klobuchar. Okay. We have some very friendly 
witnesses, which is always good to hear. I love this. This is 
what happens when we have women witnesses at a hearing.
    So we are going to call this hearing to order. I want to 
thank everyone for being here this morning to have this 
important conversation on the role of women in manufacturing, 
and to discuss the ways that women can play an even greater 
role.
    We are going to be looking at manufacturing's impact on the 
economy, at the challenges facing manufacturers, and in states 
like Congressman Paulsen and I have in the State of Minnesota 
where we have a 5.4 percent unemployment rate, as Ms. Miller 
knows, we are very much focused on how we can get more people 
into manufacturing. And the fact that we have a smaller 
percentage of women in manufacturing means that this is a great 
recruiting group where we can try to talk about how we 
encourage them to go into manufacturing.
    We have with us, first of all, Ms. Jennifer McNelly, who is 
the President of the Manufacturing Institute, which is the 
nonprofit affiliate of the National Association of 
Manufacturers. She has led the development of the Manufacturing 
Skills Certification System which certifies a set of nationally 
portable industry-recognized manufacturing skills.
    Ms. Darlene Miller is the President and CEO of Permac 
Industries in Burnsville, Minnesota. Permac is a precision 
machining company that custom-manufactures parts for customers 
around the globe in industries including aerospace, medical 
technology, and transportation.
    And then finally, Mrs. Amy Jolley is the Vice President of 
Tax at Noble Energy, an exploration and production company with 
domestic and international operations. And she is responsible 
for all of the company's global tax matters.
    I think we all know that for decades manufacturing has been 
a pathway to the middle class for millions of families. It 
remains central to the U.S. economy today, making up about one-
eighth of GDP. And manufacturing is also a major driver of 
innovation, accounting for 70 percent of the research and 
development carried out by U.S. industry, and generating 90 
percent of patents. In fact, I was just talking to the CEO of 
3M last evening. They are adding a number of jobs for research 
and development in our State with an Innovation Center. And of 
course they make the Post-It Note, and we like to say we have 
everything from the Pacemaker to the Post-It Note. But it has 
all been about manufacturing.
    So what has been happening? Well I can tell you in my State 
a recent poll of manufacturing companies, 60 percent of 
respondents said it was hard for them to find workers with the 
right skills. That is up from 40 percent in 2010.
    We have issues with welders. We have issues with all kinds 
of robotics jobs, things like that. And we see women as 
integral to the solution.
    Women are underrepresented in the manufacturing workforce. 
They are losing ground. Women's share of manufacturing 
employment has been falling steadily since 1990, and is now at 
the lowest level since 1971. Women make up just 27 percent of 
the manufacturing workforce.
    In order to change that direction, and in order to help 
manufacturers meet their hiring needs, we need to identify new 
ways for women to be exposed to, trained for, and participate 
in future opportunities in manufacturing.
    The first of course is STEM education for boys and girls, 
and making sure that they are getting those skills. Just 
yesterday Senator Hatch and I got our amendment on the 
immigration bill which increases the funding for STEM education 
by adding a fee to the visa fees, something the business 
community believes is very important.
    Making sure that community colleges play a key role here is 
also very important, as we look at how kids in high school and 
in community college are getting the skills that they need.
    Addressing the perception challenge to manufacturing. I 
can't tell you how many--and Ms. Miller can probably talk about 
this--how many people on the factory floors, the usually male 
foremen, have said to me--pulled me aside and said: We need to 
get more women here. We don't have enough people to fill the 
jobs.
    I remember at one plant when it was 10 degrees, I said to 
them: Have you considered heat?
    [Laughter.]
    And he goes, well, you know, I don't know; I haven't 
thought of that; everyone's fine.
    When I got home, I put on my Facebook Page the company that 
I visited that day, and two people wrote in: My brother worked 
there, but it got too cold and he left.
    [Laughter.]
    We have already made a lot of steps in the right direction 
to make sure people know this isn't your grandpa's factory 
floor anymore. It is cleaner. It is safer. The skills are 
higher. And we have to bring that message home to girls all 
around the country.
    I want to quickly recognize the leadership of Congresswoman 
Carolyn Maloney of New York on women's employment issues, and I 
would like to recognize her just to speak here, yielding a 
minute of my time for her remarks.
    [The prepared statement of Vice Chair Klobuchar appears in 
the Submissions for the Record on page 24.]
    [The report titled ``Women in Manufacturing'' submitted by 
Vice Chair Klobuchar appears in the Submissions for the Record 
on page 26.]

     OPENING STATEMENT OF HON. CAROLYN B. MALONEY, A U.S. 
                  REPRESENTATIVE FROM NEW YORK

    Representative Maloney. Well thank you, Madam Chair, and 
congratulations on your leadership on this issue.
    The JEC has historically played an important role in 
highlighting how women have fared in earnings, education, and 
jobs. In 1973 the JEC held an historical series of hearings 
entitled ``The Economic Problems of Women'', and in 1983 
Senator Olympia Snow held a number of hearings looking at the 
changing role of women in the workforce.
    When I concluded my time as Chair of the JEC at the end of 
2010, I issued a report, ``Invest In Women, Invest In America: 
A Comprehensive Review of Women in The U.S. Economy,'' to help 
policymakers better understand how women can drive economic 
growth.
    Your hearing is tremendously important. It points out that 
we are gaining manufacturing jobs, which is great, over 530,000 
new jobs in manufacturing; yet, we are not sharing the 
prosperity. We are growing the disparity because during that 
time your report shows that 28,000 manufacturing jobs were lost 
to women.
    So we need to address how this can happen. I think this is 
an important hearing on our economy, and also in advancing the 
opportunities for women in the workforce.
    So thank you very much, Madam Chair, or Vice Chair, for 
holding this hearing and I am delighted to be here supporting 
you.
    Vice Chair Klobuchar. Well thank you so much, and thanks 
for your leadership. I know Chairman Brady would like to speak, 
as well, and has been a leader in this area.

    OPENING STATEMENT OF HON. KEVIN BRADY, CHAIRMAN, A U.S. 
                   REPRESENTATIVE FROM TEXAS

    Chairman Brady. Well I would like to thank Vice Chair 
Klobuchar for choosing the topic of today's hearing, ``Women in 
Manufacturing.''
    As we have discussed with particular focus in this 
Congress, the United States is suffering from an economic 
growth gap, and manufacturing is no exception. This recovery 
remains the weakest since World War II. We still have about 
$1.2 trillion less in real GDP, and about 4.1 million fewer 
private-sector jobs than in an average post-war recovery.
    Every Member of Congress agrees on the importance of 
manufacturing. Last year, manufacturing contributed $1.87 
trillion to the economy. In April of last year, 12 million 
Americans were directly employed in the manufacturing industry. 
And according to the National Association of Manufacturers, 
taken alone U.S. manufacturing would be the 10th largest 
economy in the world.
    After rising for several decades, the percent of women 
employed in manufacturing peaked at 32.3 percent in the early 
1990s. The percentage of women employed in manufacturing has 
subsequently declined to 27.3 percent.
    Notably, this decline has been seen for both genders. 
Manufacturing jobs for women have declined to just 5 percent of 
the total nonfarm payrolls for women, and to a mere 6 percent 
of the same payrolls for men.
    In context of the economy at large, manufacturing has been 
shrinking as a portion of the economy both in terms of GDP and 
employment, and yet labor productivity in this industry has 
outpaced the rest of the economy.
    American manufacturers are the most productive in the 
world, far surpassing the worker productivity of any other 
major manufacturing economy, leading to higher wages and higher 
living standards. Manufacturers in the United States, as 
Senator Klobuchar said, perform two-thirds of all private-
sector R&D in the Nation, driving more innovation than any 
other sector.
    So why has the percentage of women employed in 
manufacturing declined? Is this a function of the changing 
composition of goods manufactured in the United States? Or a 
mismatch in skills versus available jobs? Or other factors? And 
what role should the Federal Government play in addressing 
these answers?
    Going forward, most of manufacturing jobs require advanced 
skills and higher education. Between 2000 and 2011, 
manufacturing employment has increased by more than 10 percent 
among workers with more than a bachelor's degree. This compares 
to the approximate 25 percent decline in employment among 
manufacturing workers overall.
    Women are indeed surpassing men in attaining additional 
skills and post-secondary education and beyond. The gender gap 
in education has closed since 2000 in the manufacturing 
workforce, and as of last year 28 percent of women in 
manufacturing hold a four-year college degree or higher, 
compared to 29 percent for men.
    However, women remain currently underrepresented in 
science, technology, engineering, and mathematics, representing 
46.5 percent of the total employed in these fields. A study by 
the American Association of University Women found that most 
women in STEM fields are biological scientists, chemists, and 
environmental scientists, rather than in other STEM fields that 
directly relate to most forms of manufacturing.
    Over time, increasing the number of women receiving degrees 
in STEM fields that directly relate to manufacturing will 
increase the number of women employed in manufacturing. We 
should remove any obstacles that discourage women from majoring 
as undergraduates and seeking advance degrees in these fields.
    Furthermore, many high schools, universities, and 
manufacturing firms are proactively encouraging women to pursue 
education and training in manufacturing with high school 
partnerships and internships, reaching out to women on campus, 
and focusing on career training for women.
    Final point: Critical to employing more women in 
manufacturing is ensuring that the United States remains an 
attractive place for manufacturers to do business.
    The keys to a strong manufacturing sector include pro-
growth tax reform; balanced regulation; a sound dollar; 
abundant, affordable energy distributed across the country, 
with the help of the Keystone XL and other pipelines; and a 
reduction of health care costs that impede employers from 
hiring.
    I hope the witnesses today can shed light on the trends of 
women in manufacturing going forward, what's been working best 
to attract women to high-skill manufacturing and other STEM 
fields, as well as broadly identifying best practices for the 
continued success of the manufacturing industry in America.
    Ms. Jennifer McNelly, President of the Manufacturing 
Institute, will tell us about the initiatives that her 
organization is undertaking to help women pursue careers in 
manufacturing.
    Ms. Darlene Miller, the President and CEO of Permac, will 
discuss ``Right Skills Now,'' a cooperative program with 
community colleges to credential women with skills needed by 
manufacturers. Also, she is part of the Minnesota mafia taking 
over the JEC these days.
    [Laughter.]
    Finally, Mrs. Amy Jolley, Vice President of Tax for Noble 
Energy, who is from my home State of Texas----
    [Murmurs in the background.]
    Thank you.
    [Laughter.]
    I will pause for applause--will inform us of the 
opportunities for women in the booming energy production 
manufacturing sector.
    I look forward to hearing the testimony of all the 
witnesses. I yield back.
    [The prepared statement of Chairman Brady appears in the 
Submissions for the Record on page 33.]
    Vice Chair Klobuchar. Very good. Well thank you very much, 
Mr. Chairman.
    Ms. McNelly, why don't you begin.

STATEMENT OF MS. JENNIFER M. McNELLY, PRESIDENT, MANUFACTURING 
                   INSTITUTE, WASHINGTON, DC

    Ms. McNelly. Chairman Brady, Vice Chairman Klobuchar, and 
distinguished Members of the Committee:
    Thank you for the opportunity to appear today on behalf of 
the Manufacturing Institute and Women in Manufacturing. I am 
Jennifer McNelly, President of the Institute, and we are the 
authority on the attraction, qualification, and development of 
worldclass talent.
    Vice Chairman Klobuchar, you noted in your opening remarks 
the traditional perspective of manufacturing, and I like to say 
historically we have been viewed as the 3Ds: Dark, Dirty, and 
Dangerous. And when we think about advanced manufacturing in 
this economy, and the steps that we have made forward in 
pulling us out of the recession.
    I like to think about the three Ps that make us 
competitive. It is the Processes in our facilities that allow 
for innovation. It is the Products that we create. And most 
important, it is the People, the individuals that walk into our 
facilities every single day.
    In a survey of over 1,000 manufacturers from Deloitte and 
the Manufacturing Institute, we found that over 80 percent of 
our Nation's manufacturers could not find qualified, skilled 
workers.
    Manufacturing companies cannot fill as many as 600,000 open 
jobs today. There is one obvious source of human capital that 
the manufacturing industry has not fully tapped: women.
    Across the manufacturing sector, women are underrepresented 
in the workforce. While women represent nearly half of the 
total U.S. labor workforce, they comprise about a quarter of 
durable goods manufacturing.
    In a 2012 report from Deloitte and the Manufacturing 
Institute, we set about to understand why manufacturing is not 
attracting, retaining, and advancing their fair share of women. 
The survey was conducted with 600 women across manufacturing, 
including individual interviews.
    Today I would like to highlight two of the most consistent 
responses from women that we interviewed: Sponsorship and 
Personal Development.
    Sponsorship: Women who were successful in manufacturing 
often looked at their career choices and credited a sponsor 
undertaking responsibility for their development and 
professional progression. Sponsorship extends beyond mentoring 
and coaching to being a vocal advocate.
    Recent research shows that individuals who have active 
support from sponsors are more likely to advance in their 
careers. Sponsorship can have a 30 percent benefit in terms of 
stretch assignments, promotions, and pay increases.
    To encourage this goal, this year the Manufacturing 
Institute sponsored the First Annual Science, Technology, 
Engineering and Production Awards, or the STEP Ahead 
Initiative.
    We celebrated and recognized 122 women from the front lines 
to the C-suite for their contribution to the competitiveness of 
their company and manufacturing in this economy, women who have 
demonstrated exceptional leadership in their careers.
    We were able to celebrate exciting careers and showcase the 
impact that women have to our industry. The honorees are role 
models to empower today's current manufacturing leaders, and 
most important inspire the next generation.
    We have one of our STEP honorees here with us today, 
Darlene Miller. All of our honorees have contributed to their 
company's success and the competitiveness of manufacturing in 
this country.
    For example, Natalie Genova, Senior Project Manager, 
Integrated Supply Chain at Honeywell International. Natalie 
created a best-in-class onboarding training and leadership 
program for Honeywell. Natalie frequently attests her success 
to the importance of a sponsor and her own relationship with 
her sponsor, DonnaLee Scaggs. The impact this relationship had 
on Natalie has in fact turned her into a sponsor and mentor 
herself.
    The second is Promoting Personal Development. In addition 
to powerful mentors and role models, women also cited 
professional development as a priority for success. Successful 
manufacturing organizations today provide their workforce 
talent with a clear understanding of the behaviors, 
capabilities, and expectations required to advance, and help 
individuals build out an experiential development plan. This 
includes identifying the challenging assignments, roles and 
experiences that help close that gap. A critical component of 
development is enhancing skills and building individual value 
in a company.
    To that end, the Manufacturing Institute identified a 
series of nationally portable, industry-recognized credentials 
specifically to help grow workers in the manufacturing economy. 
In fact, one of our STEP Honorees is one of the most certified 
welders in industry.
    Karen Gilgenbach, Weld Process Specialist for Airgas in 
Milwaukee, Wisconsin, is a Certified Welding Supervisor and a 
Certified Robotic Arc Welding Technician, both offered through 
the American Welding Society. Karen pursued additional training 
and education to achieve these certifications and increase her 
skill set. Much of this training can in fact be done in our 
Nation's community and technical colleges.
    For many years, post-secondary success was defined as a 
four-year degree, whereas a valid, industry-based certification 
can provide the knowledge, skills, and abilities for a solid, 
middle-class family and a lifestyle. In conclusion, 
manufacturers across the country are beginning to realize that 
women are an untapped resource. Retaining, developing, and 
advancing these skills can be a challenge in a traditionally 
non-female environment. Our research shows that identifying 
sponsors and clear career pathways supports this effort.
    I hope that we can work together in the future to promote 
these goals. Thank you for the opportunity to testify, and I 
look forward to working with you to build the next-generation 
manufacturing workforce.
    [The prepared statement of Jennifer M. McNelly appears in 
the Submissions for the Record on page 34.]
    Vice Chair Klobuchar. Very good. And thank you for the work 
you are doing nationally. It is really important. Thank you.
    Ms. Miller.

  STATEMENT OF MS. DARLENE MILLER, PRESIDENT AND CEO, PERMAC 
                   INDUSTRIES, BURNSVILLE, MN

    Ms. Miller. Thank you, Congressman Brady, and Senator 
Klobuchar, for inviting me here today and to share my views on 
manufacturing and especially the importance of women in 
manufacturing.
    My personal story comes from owning a precision machining 
company since 1994. I actually started there in 1992. 
Manufacturing has been great, rewarding, and exciting for me. 
And as Senator Klobuchar mentioned, we make really cool 
products. And my company does have heat, and air conditioning, 
and is clean.
    When I started, we had 7 people, about 7,000 square feet, 
and about $700,000 in sales. Today, we have 34 people, about 
34,000 square feet, and almost $5 million in sales.
    We believe a really good mix of men and women are necessary 
in our company to utilize everyone's skill set so that the 
maximum--can be achieved. Plus, we do not want to leave any 
talent source untapped.
    We at Permac have had difficulty hiring people for the last 
21 years that I have been there. It doesn't matter if it's a 
CNC machine programmer, it's a quality tech, or whatever 
position we have in manufacturing--and there are many--we have 
always had to search and search.
    I have actually had to go two years looking for a CNC Swiss 
Programmer before we found a person who was skilled and trained 
to do that position. And unfortunately, this is something my 
colleagues and I have experienced continuously. We have job 
openings that go for months unfulfilled, which really adversely 
affects our ability to grow and manufacture more products.
    As Jennifer mentioned, I was the recipient of the Women In 
Manufacturing Award, and we have also been fortunate to win 
some other awards such as the SBA Small Business Person of The 
Year, and the U.S. Chamber of Commerce Small Business of the 
Year for the entire U.S. And I think, due to these, I was given 
the honor of being asked to serve on the President's Council 
for Jobs and Competitiveness.
    And then I was asked to co-chair the High Tech Education 
Committee. Well, I could finally do something and make a change 
for our industry. So along with NAM, and NIMS, and ACT, and two 
colleges in Minnesota, we developed a program called ``Right 
Skills Now.'' Very rightly named.
    It is a 24-week, fast-tract, stackable credentialed program 
with 16 weeks of classroom and lab, and 8 weeks paid internship 
by the companies.
    This is for men and for women. This is for 18-year-olds. 
This is for 50-year-olds, people who are recareering, people 
who lost their positions, people who left college, people who 
are graduating from high school. And I am really proud to say 
this program is expanding.
    We are in approximately 30 schools at this point, and we 
just started it, launched it in October of 2011. And RSN is in 
8 different states. So it is progressing very nicely and we are 
getting women involved in this program.
    From this program, we also developed another one called 
``Get Skills to Work,'' which is for the Military and their 
families. That started in Ohio this January, and is going to 
roll out in 9 other states this year. It is a direct offshoot 
of ``Right Skills Now.''
    It is just amazing that we can use this program to make 
such a huge difference in people's lives, and to show them what 
manufacturing is all about--especially to women.
    Most of these men and women really have no concept of what 
manufacturing is. They have no idea, other than there are job 
openings. And as Jennifer said, 600,000 job openings today in 
manufacturing.
    As a woman leader in manufacturing, I feel it is very 
important and I have a passion to encourage other women to get 
into this industry. I recently spoke at a school in Wisconsin. 
It was for high school seniors and there were many girls in the 
audience. I explained to them how women can get into 
manufacturing in all different levels.
    And I told them we females actually have an advantage in 
our industry. We think differently. We think critically. And 
our asking, our asking why leads to improvements and 
efficiencies in our processes. And our attention to detail 
helps minimize mistakes. And our passion helps keep everyone 
motivated and working towards the same goal.
    And as Jennifer stated, I also explained our plants are not 
dark, dirty, and dangerous, as everyone thinks they are. It is 
really exciting to know that we now have more women graduating 
from colleges than our male counterparts, but we need to start 
earlier. We need the government's help, and we need the 
schools' help to let them know about the STEM careers.
    I also told the story of when I took ownership of my 
company and the Quality Director at the time said, ``Well, I'm 
going to leave this company because no woman could survive in 
manufacturing running a company. This is a man's world.''
    Well, I guess, I proved him wrong.
    I also personally became involved in a program called 
``Hope For Tomorrow.'' It is a mentoring program for young 
women, and we are now in 13 schools. And again, it is a program 
to teach young women and girls to know that their journey is 
what they make of it; that they in fact can get into any career 
they choose.
    One of the girls I mentored, I took on a field trip to a 
college. She didn't want to go. She only went because she did 
it for me, as her mentor. She said, ``in our culture, we get 
married after high school and we have babies, and I'm not going 
to college.''
    I just begged and begged her to go. So finally she went for 
me. On the way back, sitting in the bus, she stared straight 
ahead and she said, ``I can do this. I can go to college. And I 
am.''
    What a difference we women can make for other girls out 
there in the world. So my goal is to continue to be a mentor, 
to continue to push education: especially stackable, 
credentialed education, and to get more and more for girls and 
women into this industry. It only takes one person to make that 
difference, and I pledge I will continue to do so.
    I am happy to be here today, and thank you for listening.
    [The prepared statement of Darlene Miller appears in the 
Submissions for the Record on page 35.]
    Vice Chair Klobuchar. Thank you very, very much. I 
appreciate that testimony.
    Mrs. Jolley.

STATEMENT OF MRS. AMY JOLLEY, VICE PRESIDENT-TAX, NOBLE ENERGY, 
                       INC., HOUSTON, TX

    Mrs. Jolley. Good morning, Chairman Brady, Vice Chair, Ms. 
Klobuchar, thank you for inviting me here today.
    I am Amy Jolley with Noble Energy. Noble Energy is a 
Houston-based independent oil and natural gas exploration and 
production company, with approximately $20 billion in market 
cap. We have about 2,500 employees.
    In 2013, our capital spending program is expected to be 
about $4 billion, nearly two-thirds of which will be invested 
in the United States in our three primary domestic areas: 
Colorado, the Marcellus Shale of West Virginia and 
Pennsylvania; and Deep Water Gulf of Mexico.
    I would like to speak to a couple of points today: The 
similarities and overlap between the manufacturing and the 
exploration and production energy sectors; and the challenges 
we all face with respect to attracting and retaining top 
talent, particularly with respect to women.
    You may be curious about the connection of the upstream oil 
and gas industry with the classic manufacturing model. We don't 
necessarily convert raw materials into finished goods, but I 
previously worked for an independent power producer, as well as 
a global plastics and chemical manufacturer, each for several 
years, and have noted many similarities in terms of the 
challenges facing those industries in the financial, 
operational, and human resources areas.
    To access onshore hydrocarbons, we frequently follow 
manufacturing concepts to drill and complete an increasing 
number of wells. As manufacturing processes become more 
homogenous, safety performance improves, efficiencies increase, 
and costs become standardized. In the upstream oil and gas 
business, we try and capture those same economic benefits.
    We have research and development, which is comparable to 
seismic data and drilling, and we have the same considerations 
with respect to supply chain, inventory management, logistics, 
even marketing.
    So, for example, we purchase and store huge amounts of 
pipe, casing, tubing, for our Gulf of Mexico, Colorado, and 
Pennsylvania operations. The oil and gas field manufacturing 
process itself consists of installation, development, and 
production.
    We face the same challenges as traditional manufacturing in 
recruiting, hiring, and retaining highly skilled employees 
needed to run cost-efficient businesses. Noble is growing 
rapidly. Of our 2,500 employees, 400 were added in 2012 alone, 
and we expect similar growth in 2013.
    We are hiring both experienced individuals and new 
collegiate and high school graduates throughout multiple 
disciplines: technical, operational, information technology, 
financial, and marketing. We are committed to attracting the 
highest level of talent in the science, technology, 
engineering, and mathematics fields to maintain and improve our 
success.
    This means hiring various types of engineers: petroleum, 
mechanical, reservoir, and geoscientists, geophysicists, 
geologists, petrophysicists, oil and gas economists, and land 
administrators.
    To further ensure enterprise-wise success, that same 
caliber of employee must be in place in the support functions 
required to run a successful business: legal, finance, 
information technology. We also need field and well operators.
    The number and percentage of females in managerial, 
professional, and executive roles has been increasing at Noble 
Energy over the past few years. Much can be attributed to the 
larger number of females enrolled in the technical disciplines 
at the universities and colleges where we recruit.
    As Noble Energy continues its growth, it will continue to 
focus on ensuring that the critical-level talent is met 
regardless of gender. But as the number of females with 
technical degrees continues to increase, we will have an 
inherent increase in the number of females in those roles 
within the company.
    We tend to recruit at a small number of core schools, but 
we are seeing a big shift in the number of female graduates 
within the technical, geoscience, and engineering disciplines.
    Noble Energy is very bimodal. And by that, I mean we have a 
large number of employees who are either in the first few years 
of their career, or in the last few years of their career. When 
we compare those two groups, there is a significant difference 
between the gender and ethnic diversity in that experienced 
group nearing retirement and our new employees.
    As an example, our summer interns are starting to arrive 
for work this summer. This week's group of geoscience interns 
consisted of two-thirds females, and we are really excited 
about that.
    As I think of my own role, which is financial, in the 
company, I realize that 15 or 20 years ago it would have been 
very unlikely for a female to hold this position. That being 
said, last week I attended a Houston-area Chief Tax Officers 
Forum, and of the attendees, females held the top tax position 
within approximately 25 percent of Houston-area companies.
    Just a few years ago, three or four, that number was in the 
10 percent range. So you can see a shift within the Houston 
energy corridor. For me, the key to increasing the gender mix 
across the board in the manufacturing and ENP sectors is to 
actively inform students at a younger and younger age to take 
advantage of the great employment opportunities that we have.
    I grew up in rural Iowa. My own parents led me to believe I 
could do anything I wanted. But I don't think I even knew what 
an engineer was, let alone the difference between a chemical, a 
petroleum, or a mechanical engineer. That was an Internet age 
ago. There is a lot more access to information out there. But 
you have got to have people. You've got to have in K through 12 
show and tell, job fairs, just get out in front of there and 
tell people what they have.
    I love Ms. McNelly's and Ms. Miller's references to 
advocacy. We are involved in a couple of mentor and advocacy 
programs within Noble where we are connected with, someone who 
is a new hire coming into Noble. And it is just exciting to see 
the number of geoscientists--female geoscientists coming in, 
being excited about their job. But they chose that in college. 
They need to know at a younger and younger age what 
opportunities are out there.
    So having companies actively participating in educational 
outreach can demonstrate the range of careers and options 
available so kids can pursue targeted educational 
opportunities.
    The more that we can get in front of them, the more that we 
can show how they can bring productivity, economic success to 
themselves, their families, and employers in the U.S.
    I am the mom of two young kids, 5 and 3. I want them to 
both understand the range of opportunities is nearly limitless, 
but also to provide them concrete examples of what their 
choices might be with the talents they have.
    That concludes my remarks. Thank you again for asking me to 
participate.
    [The prepared statement of Amy Jolley appears in the 
Submissions for the Record on page 37.]
    Vice Chair Klobuchar. Well thank you, all of you. And thank 
you for the passion you bring to this.
    I am going to do my questions, and then Chairman Brady will 
be taking over. I think Representative Maloney and 
Representative Paulsen can stay, because we have seven votes 
that just got called right now in the Senate.
    But I wanted to, first of all, mention to Mrs. Jolley at 
the end there, I actually went with Senator Hoeven over to 
North Dakota to Williston and saw the incredible work going on. 
And one of our focuses, in addition to talking about some of 
the infrastructure they needed there, was also to talk about 
women, and that they needed more women there. And the Mayor 
asked me to say that they needed more women to move there.
    [Laughter.]
    So I was just remembering that rather hilarious moment. And 
there was a woman geoscientist who was incredible.
    But I did just want to start with you, Ms. McNelly, and ask 
you about just how you see this in terms of you referenced the 
changing factory floors, and it is no longer dirty, dark, and 
dangerous. But what are the new needs? And what kind of jobs 
could women look for if they went into this field?
    Ms. McNelly. That is a great question, and I will come back 
to product, process, and people.
    In the end, we actually have seen a skill increase in the 
requirements for individuals in the manufacturing economy, 
skills grounded in science, technology, engineering, and math, 
much of the STEM skills that we have talked about.
    But more important, as I think of the leadership role that 
women play in manufacturing today, manufacturing today really 
operates in a team-based environment. Its focus is in the 
diversity of our individuals with different perspectives that 
creates the next generation innovation. So individuals not just 
with strong STEM skills, but with leadership skills, with 
critical thinking, and in fact with the ability to operate in a 
team environment.
    And that is really important to manufacturing today, 
because innovation often happens at the front lines. And 
increasing the diversity of our workforce in fact increases the 
innovation in our workforce. So there are great opportunities 
for women with strong technical skills, as well as women with 
good critical thinking, the ability to operate on a team, and 
the ability to lead.
    Vice Chair Klobuchar. Very good. I don't know if you have 
read that Lean In book by Sheryl Sandberg. I just guessed you 
did, Ms. Miller.
    Ms. Miller. I have. And I gave it to all the women on my 
staff.
    Vice Chair Klobuchar. All right. Good. So anyway, she 
points out in this book the numbers, and I was just seeing the 
numbers for manufacturing where women hold only 17 percent of 
board seats, 12 percent of executive officers, 6 percent of 
CEOs. And as one of those CEOs, I would love to hear your views 
of how we increase women on the front line, as you have talked 
about doing the manufacturing, but then also in the board room 
and as executive officers.
    Ms. Miller. Well I think we have to be role models. As 
business owners, I know myself it is easy to get engaged in my 
day-to-day business and to really just focus on that, but I 
feel it is critical that I go out and meet with other business 
owners, and others in manufacturing, and explain to them how I 
got to where I did. You know, I have a similar story. I grew up 
in rural Minnesota on a farm, and in fact when I took over the 
company my dad said he was worried that I couldn't even pound a 
nail, so how could I possibly run a machining company?
    But, I think it is just critical that we get out there and 
we network. I belong to Women In Manufacturing. This year I am 
going to be the first woman president in our Precision Machine 
Products National Association. And again, I think that is 
showing other women that we can, and we are good at it.
    It is a team effort, but we bring different skill sets than 
our male counterparts. It is just imperative we network.
    Vice Chair Klobuchar. Very good. Mrs. Jolley, you talked 
about your own kids and how important it is to expose them to 
science, technology, math, and see this as a possibility, as 
Ms. Miller was discussing.
    Do you want to talk about how we best ensure that girls are 
going into these fields, and are prepared? Because it really 
does start at a young age.
    Mrs. Jolley. I have a three-year-old daughter. Her favorite 
iPhone app is Math Magic. Now she doesn't know the answers, 
right, but she knows her numbers. And she will sit--you know, 
we are driving somewhere, and she will sit and she will say, 
``Mom, what is 3 and 1?'' And we go through it. And she 
memorizes it.
    And my husband, he's a big tester, okay? He's like the 
threshold is high, you've got to make it. And so I mean it's 
things like that. But she is excited. That is fun for her. So 
you have to make it fun. And I think--it's been awhile--science 
fairs, or whatnot, where you are creating things, and you are 
building things, and getting into the innovative aspects of 
things, show that, show that, show that.
    Even internally. Noble is hosting an innovation conference 
week after next, and there's going to be a huge number of 
people from all over Noble's global operations coming in to 
show some of the creations that they have done within the 
workplace.
    So take that out. I mean, we just take that out into the 
school. I think the 4th Grade teachers would love to have you 
come do a show-and-tell for an hour. It's as easy as that. Push 
it down. Push it down.
    Vice Chair Klobuchar. Exactly. I was just remembering at 
one of our suburban high schools I visited, and a company 
Seagate had volunteers that would come in every week and work 
with the shop class. And they had these kids making automatic 
pool ball sorters. So that when the pool balls went out, they 
would automatically sort in the right order. And I remember 
asking these high school boys, ``Well what are you--who do you 
think is going to buy this?''
    And they said, ``People who have everything.''
    [Laughter.]
    Vice Chair Klobuchar. But the point of it was your point, 
Ms. McNelly, about products, that to interest them they 
actually have to see what they're making, and see how cool it 
is, and see that as part of the desire to go back into 
manufacturing. And we'll end with that.
    Ms. McNelly. I was going to note, Vice Chairman Klobuchar, 
one opportunity that does exist is National Manufacturing Day. 
On October 4th, factories across the country will open their 
doors and invite their communities in.
    Last year, we had over 200 manufacturers across the 
country. And we really think that in order to understand the 
role you can play in manufacturing, you actually have to walk 
through one of these high-tech facilities, see the computer 
integrated machines, the design element. So I would encourage 
all of you to consider visiting a facility on October 4th this 
year.
    Vice Chair Klobuchar. Well thank you. Thank you to all of 
you. I am sorry I have to leave, but I leave this in able hands 
with Chairman Brady. Thank you.
    Ms. McNelly. Thank you.
    Chairman Brady [presiding]. Thank you, Vice Chair. This is 
terrific testimony on an important topic. It is frustrating to 
think that there could be 600,000 jobs going unfilled these 
days, and that is a topic, as well. How do we take that 
mismatch and make it work together?
    It was really interesting to hear about the importance of 
sponsorships and advocacy in attracting skilled women into 
manufacturing.
    And, Mrs. Jolley, to your point. Energy is manufacturing. 
It's manufacturing oil and natural gas. And to your point about 
in the financial area, we work on tax reform a lot, and we meet 
with tax leaders across the country. And you're right, the 
growth of women in those top positions has changed 
dramatically, and that is encouraging.
    I want to ask this question: In manufacturing total, energy 
included, our workforce is starting to age out. There is a real 
concern going forward. You all sort of referenced this, but how 
do we go about--how do firms go about obtaining a younger, 
skilled workforce? Is this an opportunity for us to attract 
more women into manufacturing?
    Ms. McNelly. Chairman Brady, that is a great question. From 
our perspective, the example Darlene Miller gave on the use of 
our Nation's community colleges and industry-based credentials 
as a clear career pathway for individuals to be successful, 
from our perspective a good welding program in this country is 
one that trains somebody to an American Welding Society 
Standard.
    A good machining program is an individual walks out with 
not just their academic certificate, but equally a National 
Institute of Metal Working Skills. And those opportunities can 
start in a fast-track environment.
    I'll use the example of our transitioning Veterans and our 
work of Get Skills To Work, where we have so many transitioning 
Veterans with strong technical skills and no clear career 
pathway back into civilian--into the civilian world. So how can 
we take advantage?
    Someone may have machined a part but not be a machinist, 
may have welded but not be a welder. How can we put those 
individuals into short-term training programs grounded in an 
industry credential and start their career in manufacturing? 
That equally then speaks to the other pillar of not just 
sponsorship but development, and how individuals then need 
clear career pathways so that they always know they can go back 
to a community college, get additional training, and advance 
further in their company.
    So we do think that the Nation's community and technical 
colleges are a really important resource for our Nation's 
employers. And the middle-skills' jobs that you see represented 
here, because that really is what builds this Nation's middle 
class.
    Chairman Brady. Got it. Ms. Miller, you probably agree, 
because you led out talking about the importance of the 
community college tie-in.
    Ms. Miller. Absolutely. I think it is really critical, that 
the businesses engage directly with the college and get them to 
come out to their facility, to see what we need because 
sometimes they are teaching skill sets that are really not 
relevant in our workplace, or are old and outdated.
    Our equipment is very high tech. It's $400-$500,000 for a 
machine. We really need really excellent math skills and 
problem-solving skills. So it is absolutely imperative the 
schools teach those math skills, and teach what we are looking 
for. But if we do not go out there and tell them, they do not 
know what that is.
    Another thing, is to get into the middle schools. And 
again, I think the businesses have to do this. The middle 
schools, the high schools, and explain what manufacturing is 
about.
    I was just at Thaddeus Stevens last week and spoke about 
``Right Skills Now,'' and they have a program called ``Adopt A 
Kindergarten,'' where they have three female professors who 
actually go to the kindergarten classes in their area. One used 
to be a certified plumber and now is teaching plumbing at the 
school. They are all in the non-typical female roles and they 
mentor these girls from kindergarten through 12th Grade.
    We need more programs like this so that we expose kids, and 
especially women, at a young age.
    Chairman Brady. Great.
    Mrs. Jolley.
    Mrs. Jolley. Noble engages in Junior Achievement in a 
couple area Houston schools. And so again we have sort of the 
repetitive presence of the same individuals throughout the 
years. We are embarking I think on our 5th year with one 
particular school. And that is down to the elementary through 
the high school level. So I think that just goes to the--or 
reinforces the point that is being made, that for people to 
know what they can do, they have to know what is out there to 
do. And I think that Noble takes it very seriously, and we try 
and engage our employees in what is volunteer activity, but 
because we can see that it adds down the road to valuable 
employees that can only help our own businesses succeed.
    Chairman Brady. Well thank you all very much, appreciate 
it. Representative Maloney is recognized.
    Representative Maloney. Thank you very much.
    I would first thank all the panelists, and certainly Vice 
Chair Klobuchar for her excellent report. And really the Chair, 
too, for his sensitivity and devotion to what is a really 
critical issue.
    Too often women's issues are swept under the rug and not 
seen, and this is an important hearing in my opinion primarily 
because we are growing manufacturing jobs. Let's make it in 
America. Let's grow our job base.
    But during this time of growth, women lost jobs. They lost 
roughly 28,000 jobs. And I would like to try to understand why 
this happened.
    Ms. Miller, I loved your story about your director saying 
I'm leaving because obviously there's no way a woman could 
succeed, and of course you have succeeded. All of you have 
succeeded.
    So I would like your insight, and all of the panelists, 
really, on what we can do about the 77 cents to the dollar. We 
seem to be stuck at 77 cents to the dollar for 20 years. It has 
not moved. It has not budged.
    What can government do, if anything, to help in that area? 
Obviously education. We are moving ahead in education, yet it 
is not translating itself into successful statistics.
    And if you look at the glass ceiling, it is particularly 
hard for anyone moving up, for a CEO. You are quite 
extraordinary. Very few women are successful CEOs. And reports 
have shown that the 77 cents to the dollar gets worse in most 
job categories, with the exception of areas where women 
dominate such as in health care and education.
    In fact, I showed--did a report called ``A New Look At The 
Glass Ceiling'' that showed that five years out the disparity 
falls, sometimes 15, 20 percent.
    So I would like to ask Ms. Miller, and then Ms. McNelly and 
Mrs. Jolley to comment on that. What can we do to break that 77 
cents to the dollar that seems to be cast in stone? And other 
opportunities to move up the line. We all know the numbers. The 
number of CEO women is, you know, minuscule compared to men--
although our educational capabilities and intellect are the 
same.
    Ms. Miller. Unfortunately, that is true, but I do feel that 
we women act differently. Our male counterparts are the first 
ones to come up and ask for that raise, or bring their skill 
sets to the forefront and I hear so often where women do not do 
the same. I get really frustrated because I do not feel there 
is as much of a glass ceiling as we women make of it. So I 
think again we women have to go out there and really encourage 
and mentor other women to make sure that they realize their 
talents and expose them to their employers.
    It has been a challenge I know for years. It is not that 
way in my company. And when I speak, I really try to encourage 
people, women, to get out there and encourage other women. I 
wish I had the answer. I don't. But I just do think we need to 
toot our own horns a little bit louder and maybe we can make 
that change.
    Representative Maloney. Ms. McNelly, and then followed by 
Mrs. Jolley.
    Ms. McNelly. I am going to speak to the opportunities in 
manufacturing. And in the end, manufacturing pays more than any 
other sector.
    So as we increase women's participation, we equally will 
increase their wage gains proportionate to the U.S. economy. 
And part of that comes back to exposing women to the 
opportunities of these great family-sustaining careers in 
manufacturing.
    So from my perspective, by expanding the opportunities and 
exposure to women in manufacturing, we will in fact have the 
opportunity to grow them within this great family-sustaining 
middle class jobs, middle-skills jobs environment in this 
economy.
    Mrs. Jolley. This is an area that I have a lot of passion 
around, because again I have two young children. I think 
companies need to focus on the fact that it is usually women 
who take a break, right? Some of that disparity is because 
women take a break.
    So you need to make it much easier for them not to take a 
break, right? So, for example, Noble is moving to a new 
headquarters. We are partnering with the local YMCA that is 
across the street for on-site extended day care. Flex time. 
Things that can allow part-time work, or that make it easier 
for somebody who when they have a child can come back much more 
quicker or easier to integrate. Job sharing opportunities.
    Noble is engaging in some of these activities, and more.
    Representative Maloney. I only have 13 seconds left, and we 
are on a tight time. I just want to hear any of your ideas of 
manufacturing. We are losing jobs in manufacturing for women. 
Why is that? Is it training we need? What do we need to address 
to get more women in manufacturing?
    Ms. Miller. It is the perception, mainly. But the other 
thing is, we have to have credentialed programs. We have to 
have certified programs in manufacturing so that it is rated as 
high as a four-year college degree--instead of a second-class 
citizen, or a second-class job.
    So credentialling our manufacturing is really I think key 
to making it a viable career.
    Representative Maloney. Thank you. My time has expired. 
Thank you, Mr. Chairman.
    Chairman Brady. Thank you. Representative Paulsen.
    Representative Paulsen. Thank you, Mr. Chairman.
    This is great testimony on an important topic. I have had a 
chance, Mr. Chairman, actually to spend time on the floor of 
the operations of Ms. Miller at her company, and I can assure 
you that she is a leader in her industry and is playing a key 
role in Minnesota's economy in many, many ways.
    I just want to mention, too, as the father of four 
daughters it is great to see all of you here successful today, 
but it is also awesome to know that women are rising to the top 
of their fields, and they are breaking through these glass 
ceilings in a whole variety of different industries.
    These glass ceilings have stood in their way for a long 
period of time. I guess my question is this: What can 
government do, or what can Congress--what should Congress be 
focusing on, now that women are rising through the ranks? They 
are becoming more successful in breaking these ceilings, and 
they are competing against what has been the status quo--you 
know, men in different fields. And how can we harness that 
opportunity? Because it is an opportunity when women are being 
underrepresented in the area of manufacturing, as was pointed 
out, so that we can continue America's leadership, and 
innovation, and growth, and invention, and creating new things, 
and making things, building stuff. I mean, what should our role 
be?
    Is it focusing on STEM education, knowing that there is 
where more high-skilled work is going to be going down the 
road? And what is that going to mean as the labor market shifts 
in the need for high-skilled workers? Ms. McNelly?
    Ms. McNelly. Darlene actually mentioned the importance of a 
quality, skilled workforce and how you create transparency out 
of the education system.
    One opportunity that Congress has is the America Works Act, 
which would in fact prioritize federal funding in job training 
to programs of study that end in an industry-based credential. 
So that programs across the country like the Right Skills Now 
program could have the right federal resources and job 
training, and that job seekers can understand what length of 
training they needed; how long it was going to take; and what 
their employment opportunities could be at the back end.
    So we do think that legislation like America Works could in 
fact support closing our Nation's skills gap.
    Representative Paulsen. Ms. Miller, you have been involved 
in advocacy, professional development, sponsorship, as was 
mentioned earlier, but what else should we be focused on as a 
part of helping this effort?
    Ms. Miller. Well I think highlighting the manufacturing 
stories and success stories, and really getting the word out 
there that manufacturing is here to stay; that we produce over 
21 percent of all manufactured products in the world. We really 
need to get that message out.
    The other thing is to really provide the scholarships and 
the monies for training for STEM careers, to include machining, 
or for manufacturing in any mode, like we do for the four-year 
colleges. We do not contribute near as much, or have the 
government funds available for people to go into those career 
paths as we do the four-year degrees. If that was equal, we 
would see more people in our industry. Thank you.
    Representative Paulsen. Ms. Jolley.
    Mrs. Jolley. So my background is finance and tax, and what 
I really think is you have to have a focus on a business 
friendly environment. You have to stimulate the growth. Make 
sure the United States continues to be and improves upon its 
location as a great place to do business.
    I don't know much about the people aspect and how to 
encourage job growth particularly for females, but I do know 
that if you've got businesses here--I mean, in the energy 
industry we have seen a renaissance over the last few years. 
And those energy products go downstream. They are the inputs 
for the manufacturing processes all along the way.
    And so if you continue to focus on making the U.S. a great 
place for Noble Energy and other companies like this, you make 
it a great place for the manufacturing industries to increase 
their own businesses here in the United States.
    Representative Paulsen. Yes. Well again this has been great 
testimony, Mr. Chairman. I just note that one of my four 
daughters has an interest maybe in being a pediatrician some 
day, and helping people, helping others, right, it's kind of in 
her nature. She wants to do that.
    And I said, well, maybe you should think about touring a 
medical device company, which we have a lot of in Minnesota, 
obviously, and then that would allow her to invent things, 
create things to help improve life for lots of people rather 
than just on an individual-patient basis. So I am trying to 
generate those similar ideas and concepts with some of my young 
girls.
    Thank you, Mr. Chairman.
    Chairman Brady. You're welcome. I have met Congressman 
Paulsen's girls. Soon four of the Fortune 100 companies will be 
headed by Erik's kids.
    [Laughter.]
    I'm pretty certain of that.
    Representative Delaney.
    Representative Delaney. Thank you, Mr. Chairman. And I just 
realized my colleague from Minnesota and I have something in 
common, because I have four daughters, as well. So you've got 
the four-daughter club up here, which is why we probably both 
mildly disagree with my colleague from New York's comments when 
she said that men and women have identical intellects. I would 
conclude pretty quickly that women have superior intellects, at 
least based on my experience over the years. And that is not 
just informed by my household.
    This is great testimony. Thank you for being here. And it 
really is important testimony particularly with regard to 
energy. Because I think the comment was made about energy, 
because it seems to me the energy revolution that is going on 
in this country, which I actually think we underestimate and do 
not talk about enough in terms of how utterly transformative 
this is, is, together with technology, really a massive 
opportunity for U.S. manufacturing to be perhaps more 
competitive than it has ever been, depending upon the sector.
    So it is a really, really good topic. The data that you all 
went through in your testimony, I'm not going to go over that 
again, it was great. It is a concerning topic when you consider 
almost 60 percent of the college graduates are women, over half 
the workforce is women. But last year when people were promoted 
to vice presidents, only 25 percent of them were women. And 
when they were promoted, promotions occurred in the C Suite, it 
was only 15 percent women.
    So that is a concerning trend. One of the things that has 
always struck me is some data that I saw that said that when 
young boys and girls, age 5 or 6, are polled about what they 
want to do when they grow up, their answers are very similar. 
In other words, the number of young boys and girls that want to 
be presidents, astronauts, CEOs, go down the list, is very 
similar.
    When 15 or 16 comes along and they do the same poll, it 
starts to diverge significantly. And I worry about kind of a 
disempowering message that society is delivering to young women 
in terms of a whole variety of things, but including their 
opportunities in the corporate workforce.
    Because the problem that we have with women progressing 
across all of corporate America is obviously a multi-
dimensional problem, and there are a lot of components to it. 
And I think you touched on some really good ones, particularly 
the comments about making it a work-friendly environment.
    Prior to being in Congress, I ran a company that I started 
that was a public company, and it always was rated one of the 
best places to work in the D.C. area. And it was all because of 
those things. And it was a huge asset in attracting talent.
    But I actually want my question to come back to this 
somewhat disempowering message that I see. And, you know, I am 
probably relatively insensitive to it as a man, but you 
definitely see it in the media. You see it in society. That 
women are still portrayed differently than men in their 
careers, et cetera.
    So I don't mean to lift up from a hard database 
presentation, which this has been and it's been really 
terrific, and ask a question that's a little more qualitative 
in a way, but do you have any observations on that, how big of 
an issue that is in terms of this problem? Anyone can start.
    Ms. McNelly. I actually think one of our challenges in 
manufacturing is marketing the opportunities. Because we do in 
fact make jets fly. We make food taste better. We make life-
saving medical devices. Yet we are not very effective at how we 
communicate.
    And I often think that when you survey young children as to 
what they want to be when they grow up, it is what they are 
exposed to. So opportunities like National Manufacturing Day, 
to open up the doors and to see the difference. Because I also 
do think that women are often motivated by grand challenges on 
the differences that women can make.
    And when I think about the importance of manufacturing in a 
global economy, it is manufacturing that will solve many of our 
world's global challenges. Energy is a manufacturing process as 
we build infrastructure.
    So I do think a piece of that is the responsibility of 
manufacturers to share what we do very openly to inspire the 
next generation, because we do make great things.
    Representative Delaney. Right.
    Ms. Miller.
    Ms. Miller. I think it is important to do these programs 
like Hope For Tomorrow, also to expose these kids at a young 
age that they can excel in any of these fields; and that they 
can be involved in any career path they choose, rather than 
just the stereotypical ones.
    I think, in business it is really critical that we realize 
I give men as much time off to go watch their kids' games, or 
to go to their doctor appointments with their kids, or school 
conferences, or whatever. So we need to get that out, that men 
and women are treated equally in their time off, and that we 
don't expect just women to go take on those roles. We expect 
the men to do it also.
    I think if companies could highlight this, it would also 
help.
    Representative Delaney. Mrs. Jolley.
    Mrs. Jolley. Thank you. Yes, my 5-year-old boy and my 3-
year-old girl both want to be super heroes right now. But I 
think it is important, everything in here is manufactured in 
some way, right? So it is an easy call.
    You know, how do you make this plastic bottle here? Where 
does it come from? Where does this come from? Who makes it? And 
it is very easy in a show-and-tell particularly with the young 
kids to say this is important. This makes you happy, right? 
This helps your life?
    We sponsor a young child in El Salvador, and it was 
incomprehensible to my 5-year-old that he wrote us a thank you 
letter that they used some money we sent them for food, right? 
And it was a question, well, can't we buy him a toy?
    So it's important: Well, that toy is manufactured, right? 
And where does all that come from? So at the young age, it is 
just by example, by example, by example. And you can make that. 
You can make that somewhere along the line.
    Representative Delaney. Thank you.
    Chairman Brady. Thank you, Representative. We are very 
respectful of your time, as we wrap up.
    Let me, on behalf of Vice Chair Klobuchar, thank you for 
being here today. You three are really mythbusters. I mean, the 
myth of America doesn't make anything anymore? Clearly we do. 
You know, America can't compete anymore? Clearly we do, 
becoming the most productive manufacturing sector in the world. 
And women don't manufacture? They do, in a big way.
    And we have got an opportunity with an aging workforce to 
use the tools you identified that work, and to apply those into 
a bigger space going forward.
    So I again want to thank you all for being here. This 
meeting is adjourned.
    (Whereupon, at 11:05 a.m., Wednesday, May 15, 2013, the 
hearing was adjourned.)
                       SUBMISSIONS FOR THE RECORD

 Prepared Statement of Hon. Amy Klobuchar, Vice Chair, Joint Economic 
                               Committee
    I want to thank everyone for being here this morning to have this 
important conversation on the role of women in manufacturing and to 
discuss ways women can play an even greater role in the future.
    Today's hearing will examine manufacturing's impact on the economy, 
look at the challenges facing manufacturers and explore how--by 
increasing women's participation in the sector--we can strengthen 
manufacturing and bolster our economy. This hearing will cover many of 
the same topics as the report I released yesterday on women in 
manufacturing.
    I'd especially like to thank our distinguished panel of witnesses:
    Ms. Jennifer McNelly is President of The Manufacturing Institute, 
the non-profit affiliate of the National Association of Manufacturers. 
She has led the development of the Manufacturing Skills Certification 
System, which certifies a set of nationally portable, industry-
recognized manufacturing skills.
    Ms. Darlene Miller is the President and CEO of Permac Industries in 
Burnsville, Minnesota. Permac is a precision machining company that 
custom-manufactures parts for customers around the globe in industries 
including aerospace, medical technology and transportation.
    Mrs. Amy Jolley, is Vice President of Tax at Noble Energy, 
Incorporated, an exploration and production company with domestic and 
international operations. She is responsible for Noble's global tax 
matters.
    For decades, manufacturing has been a pathway to the middle class 
for millions of families--offering good wages, good benefits and a shot 
at home ownership.
    Manufacturing remains central to the U.S. economy today, making up 
about one-eighth of GDP. And, manufacturing is a major driver of 
innovation, accounting for 70 percent of research and development 
carried out by U.S. industry and generating 90 percent of patents. From 
the pacemaker and the Post-It note in my state, to the hand-held 
calculator in Texas, to air conditioning in New York, to a ``smart'' 
polymer that introduces medicine into the bloodstream in Maryland, to 
the first nuclear submarine in Connecticut, manufacturing powers 
innovation across our country.
    While manufacturing employment has rebounded during the past three 
years, there is a gap today between the skills employers want and the 
experience workers have. In a recent poll of manufacturing companies in 
my state, 60 percent of respondents said it was hard for them to find 
workers with the right skills and experience, up from 40 percent in 
2010.
    When I travel around Minnesota, I hear from too many companies that 
they want to grow, but can't fill open positions. They have vacancies 
for welders and tool and die makers. I cannot tell you how many 
managers of plants have told me that we just need someone who wants to 
learn these skills, or who has these skills.
    That's a serious challenge right now, and it is likely to become an 
even bigger challenge: half of manufacturing workers are 45 years old 
or older, which means that looming retirements will increase the 
unfilled demand for skilled production workers.
    There is an additional reason to get more women in manufacturing. 
As described in a Mother's Day report that I released last week, nearly 
half of mothers work full-time outside of the home and mothers are the 
sole breadwinner in more than one-third of families.
    Manufacturing jobs pay well, helping women contribute more to their 
families' financial wellbeing.
    Continuing to strengthen U.S. manufacturing is both an immediate 
and long-term priority for our nation, and tapping the talents and 
knowledge of women workers must be part of the solution.
    Women are underrepresented in the manufacturing workforce--and are 
losing ground. Women's share of manufacturing employment has been 
falling steadily since 1990 and is now at its lowest level since 1971. 
Women make up just 27 percent of the manufacturing workforce.
    While the manufacturing sector has added more than half a million 
jobs since February 2010, men have accounted for all of these gains. 
During this period, women actually lost 28,000 manufacturing jobs.
    In order to change that--and in order to help manufacturers meet 
their hiring needs--we need to identify new ways for women to be 
exposed to, trained for and participate in future opportunities in 
manufacturing. Companies need the opportunity to better access the 
talents, expertise and experience of women workers.
    Here are a few important steps we can take.
    First, we must strengthen Science, Technology, Engineering and Math 
(STEM) education. I have a bill that would double the number of STEM 
schools and we must ensure that girls and young women are encouraged to 
take full advantage of these new opportunities. STEM skills are so 
important for today's technology-driven manufacturing jobs.
    Closing the achievement gap in math and science will ensure that 
young women have the confidence and ability to pursue a degree or 
training in math, science and engineering.
    We also need to do a better job of matching the skills taught in 
the classroom with the skills needed in the workforce.
    Partnerships between employers and their local two- and four-year 
colleges can ensure that course offerings align with what's going on in 
the economy. These partnerships work: I've seen this in schools across 
Minnesota.
    I think of the ``Right Skills Now'' program at Dunwoody College of 
Technology in Minneapolis, which is bringing local businesses to the 
table to better match course offerings with employer needs. One of our 
witnesses, Ms. Miller, is a founder of that program and I hope she will 
be telling us more about the program's successes.
    The Manufacturing Institute's work to create nationally portable, 
industry-recognized manufacturing skills credentials can help us 
address the skills gap. Integrating trade-specific credentials, such as 
welding, into community college programs will help graduates get good-
paying jobs, help employers find the workers they need and enable women 
to more fully participate in these occupations.
    Part of the challenge in recruiting more women to manufacturing is 
that the perception of manufacturing hasn't caught up with today's 
reality. This is not your grandpa's factory floor anymore. Advanced 
manufacturing techniques are reshaping the sector. Sophisticated robots 
have joined the ranks of the wrench and hammer, and workers 
increasingly depend on math and engineering skills.
    Yet, not enough young women think of manufacturing as a career 
path. High school girls should be exposed to manufacturing 
opportunities so they can pursue education or training that prepares 
them for a career in manufacturing.
    Mentoring programs are great tools to expose girls and young women 
to manufacturing careers and can also help employers attract and retain 
women. They have been especially important in helping women rise in the 
ranks of leadership in the industry. When women work in industries 
where men have traditionally dominated the workforce, having a mentor 
to turn to for advice, support and guidance can boost satisfaction and 
retention.
    Formal mentoring programs and informal networks are relatively 
inexpensive to create and can pay huge dividends down the road by 
helping women stay in the industry and achieve success.
    Finally, I believe we need to be building an innovation agenda for 
America--a competitive agenda that brings us back to brass tacks.
    Manufacturing has always been at the heart of innovation in this 
country. America must be a country that makes stuff again, that invents 
things, that exports to the world, and to do that we need to do a 
better job of harnessing the skills and talents of women in the 
manufacturing industry.
    I would like to recognize the leadership of Congresswoman Carolyn 
Maloney of New York on women's employment issues. I'll recognize 
Chairman Brady in a moment, but first I would like to yield a minute of 
my time to Congresswoman Maloney for her remarks.
[GRAPHIC] [TIFF OMITTED] 81443.001

[GRAPHIC] [TIFF OMITTED] 81443.002

[GRAPHIC] [TIFF OMITTED] 81443.003

[GRAPHIC] [TIFF OMITTED] 81443.004

[GRAPHIC] [TIFF OMITTED] 81443.005

[GRAPHIC] [TIFF OMITTED] 81443.006

[GRAPHIC] [TIFF OMITTED] 81443.007

   Prepared Statement of Hon. Kevin Brady, Chairman, Joint Economic 
                               Committee
    I would like to thank Vice Chair Klobuchar for choosing the topic 
of today's hearing, ``Women in Manufacturing.''
    As we have discussed with particular focus in this Congress, the 
United States suffers from an economic growth gap, and manufacturing is 
no exception. This recovery remains the weakest since World War II. We 
still have $1.2 trillion less in real GDP and 4.1 million fewer private 
sector jobs than in an average post-war recovery.
    Every Member of Congress agrees on the importance of manufacturing. 
In 2012, manufacturing contributed $1.87 trillion to the economy. In 
April 2013, 12 million Americans were directly employed in the 
manufacturing industry. According to the National Association of 
Manufacturers, taken alone U.S. manufacturing would be the 10th largest 
economy in the world.
    After rising for several decades, the percent of women employed in 
manufacturing peaked at 32.3 percent in the early 1990s. The percentage 
of women employed in manufacturing has subsequently declined to 27.3 
percent. Notably, this decline has been seen for both genders: 
manufacturing jobs for women have declined to just 5 percent of total 
nonfarm payrolls for women, and to a mere 6 percent of total nonfarm 
payrolls for men.
    In context of the economy at large, manufacturing has been 
shrinking as a portion of the economy both in terms of GDP and 
employment, and yet labor productivity in this industry has outpaced 
the rest of the economy. American manufacturers are the most productive 
in the world, far surpassing the worker productivity of any other major 
manufacturing economy, leading to higher wages and living standards. 
Manufacturers in the United States perform two-thirds of all private-
sector R&D in the nation, driving more innovation than any other 
sector.
    So why has the percentage of women employed in manufacturing 
declined? Is this a function of the changing composition of goods 
manufactured in the United States or a mismatch in skills versus 
available jobs, or other factors? And what role should the federal 
government play in addressing these answers?
    Going forward, most of manufacturing jobs require advanced skills 
and higher education. Between 2000 and 2011, manufacturing employment 
has increased by more than 10 percent among workers with more than a 
bachelor's degree. This compares to the approximate 25 percent decline 
in employment among manufacturing workers overall.
    Women are indeed surpassing men in attaining additional skills and 
post-secondary education and beyond. The gender gap in education has 
closed since 2000 in the manufacturing workforce, and as of 2012, 28 
percent of women in manufacturing hold a four-year college degree or 
higher, compared to 29 percent of men.
    However, women currently remain underrepresented in science, 
technology, engineering, and mathematics, representing 46.5 percent of 
total employed in those fields. A study by the American Association of 
University Women found that most women in STEM fields are biological 
scientists, chemists, and environmental scientists rather than in other 
STEM fields that directly relate to most forms of manufacturing.
    Over time, increasing the number of women receiving degrees in STEM 
fields that directly relate to manufacturing will increase the number 
of women employed in manufacturing. We should remove any obstacles that 
discourage women from majoring in as undergraduates and seeking advance 
degrees in these fields.
    Furthermore, many high schools, universities, and manufacturing 
firms are proactively encouraging women to pursue education and 
training in manufacturing with high school partnerships and 
internships, reaching out to women on campus, and focusing on career 
training for women.
    Critical to employing more women in manufacturing is ensuring that 
the United States remains an attractive place for manufacturers to do 
business.
    The keys to a strong manufacturing sector include pro-growth tax 
reform; balanced regulation; a sound dollar; abundant, affordable 
energy distributed across the country, with the help of the Keystone XL 
and other pipelines; and a reduction of health care costs that impede 
employers from hiring.
    I hope the witnesses can shed light on the trends of women in 
manufacturing going forward, what's been working best to attract women 
to high-skill manufacturing and other STEM fields, as well as broadly 
identifying best practices for the continued success of the 
manufacturing industry in America.
    Ms. Jennifer M. McNelly, President of the Manufacturing Institute, 
will tell us about the initiatives that her organization is undertaking 
to help women pursue careers in manufacturing.
    Ms. Darlene M. Miller, the President and CEO of Permac Industries, 
will discuss ``Right Skills Now,'' a cooperative program with community 
colleges to credential women with skills needed by manufacturers.
    Finally, Mrs. Amy Jolley, Vice President of Tax for Noble Energy, 
who is from my home state of Texas, will inform us of the opportunities 
for women in the booming energy production sector.
    I look forward to hearing the testimony of the witnesses.
                               __________
                 Prepared Statement of Jennifer McNelly
    Chairman Brady, Vice-Chair Klobuchar, and distinguished Members of 
the Committee, thank you for the opportunity to appear today to testify 
on behalf of The Manufacturing Institute at this hearing on ``Women in 
Manufacturing.''
    My name is Jennifer McNelly, and I am the President of the 
Manufacturing Institute. We are the non-profit affiliate of the 
National Association of Manufacturers (NAM) and we are the authority on 
the attraction, qualification, and development of world-class 
manufacturing talent.
    A recent survey from Deloitte and The Manufacturing Institute found 
that over 80 percent of American manufacturing companies have a 
moderate to severe shortage of available, qualified workers. 
Manufacturing companies cannot fill as many as 600,000 skilled 
positions, even as unemployment numbers hover at historically high 
levels. Meanwhile, there's one obvious source of human capital that the 
manufacturing industry has not fully tapped: women. Across all 
manufacturing sectors in the U.S., women are underrepresented in the 
workforce. While women represent nearly half (46.6 percent) of the 
total U.S. labor force, they only comprise a quarter (24.8 percent) of 
the durable goods manufacturing workforce. The proportion of women in 
leadership roles in manufacturing companies also lags behind other U.S. 
industries.
    In 2012, Deloitte and The Manufacturing Institute set out to 
understand why manufacturing isn't attracting, retaining, and advancing 
its fair share of talented women. We surveyed more than 600 women in 
manufacturing, across functional roles and levels, to gain their 
perspectives on how effectively their companies recruit, retain, and 
advance women. We conducted one-on-one interviews with more than a 
dozen women in a range of roles from senior leadership to individual 
contributors to gain their insights on human capital and talent 
development in the manufacturing industry.
    Today I would like to highlight two of the most consistent 
responses given by the women interviewed: sponsorship and personal 
development.
                              sponsorship
    Women who were successful in manufacturing often looked at their 
career choices and credited a sponsor for undertaking responsibility 
for their development and professional progression. A sponsor extends 
beyond mentoring and coaching to being a vocal advocate, thereby 
enhancing their sponsor's presence in the organization. Recent research 
shows that individuals who have the active support of sponsors within 
their organization are more likely to advance in their careers. 
Sponsorship confers a statistical benefit of up to 30 percent in terms 
of more stretch assignments, promotions, and pay increases.
    To encourage this goal, this year The Manufacturing Institute 
sponsored the first annual Science, Technology, Engineering and 
Production--STEP--awards to celebrate women in manufacturing. The STEP 
initiative this year honored 122 women--from the front-line to the C-
suite from manufacturing companies of all sizes and all across the 
country--who have demonstrated excellence and leadership in their 
manufacturing careers. We were able to celebrate exciting careers in 
and continue to ensure new opportunities for women in the manufacturing 
industry. Women in manufacturing need, and our Honorees are, successful 
role models to empower today's current manufacturing leaders to help 
inspire the next generation of leadership and talent.
    We have one of our own STEP Honorees with us today to share her 
story, Darlene Miller from Permac Industries, located in Minnesota. 
Darlene is one of these impressive 122 Honorees. Many of our other STEP 
Honorees, just like Darlene, have served as exceptional leaders in the 
manufacturing industry.
    For example, Natalie Genova, Senior Project Manager, Integrated 
Supply Chain at Honeywell International, has not only served as a 
leader in the manufacturing industry, creating a best-in-class 
training, onboarding and leadership development program, but she 
advocates for and participates in mentorship programs. Natalie 
frequently attests to the importance of mentorship, supported by her 
own mentoring relationship she had with her supervisor, DonnaLee 
Scaggs. The impact this relationship had on Natalie has led her to 
serve as a mentor herself, recognizing that it is a critical component 
to building the company's talent pipeline.
                      promote personal development
    In addition to powerful mentors and role models, women also cited 
professional development as a priority for success. Successful 
manufacturing organizations today provide potential talent with a clear 
understanding of the behaviors, capabilities and experiences required 
for roles and positions and help talent build out an experiential-based 
development plan. This should include: identifying the challenging 
assignments, roles and experiences that will help them close the gaps, 
and providing them with the opportunity and backing to take on these 
stretch assignments.
    To that end, The Manufacturing Institute identified a series of 
nationally portable, industry-recognized credentials based specifically 
on employer-identified skills. These credentials, in use by companies 
across the country, clearly lay out the training required to certify 
that an individual possesses the basic skills necessary for a career in 
manufacturing. By clearly identifying the next level of success through 
a credential and training, employees are aware of exactly what is 
necessary for advancement and success.
    In fact, one of our own STEP Honorees is one of the most certified 
welders in the industry today. Karen Gilgenbach, Weld Process 
Specialist for Airgas USA, LLC in Milwaukee, Wisconsin, is a Certified 
Welding Supervisor and a Certified Robotic Arc Welding Technician, both 
offered through the American Welding Society. Karen pursued additional 
training and education to achieve these certifications to not only 
increase her skill set, but to also validate her skill set.
    Much of this training is done though community and technical 
colleges--education platforms that are uniquely situated to provide 
this type of training. This also supports more on and off ramps in 
education, which facilitates an individual's ability to obtain 
schooling when their professional career requires it and also positions 
them to earn while they learn, applying what they learn in class at 
night on the job the next day. For many years, postsecondary success 
was defined as a four-year degree, whereas a valid, industry-based 
credential can provide the knowledge and skills for a well-paying job 
and a solid middle-class lifestyle, establishing a strong base with a 
potential to grow.
                               conclusion
    Manufacturers across the country are beginning to realize that 
women are an untapped resource. However, retaining and nurturing that 
skilled talent can be a challenge in a traditionally non-female work 
environment. Our research has shown that identifying sponsors as well 
as providing clear career training pathways vastly improves retention 
and success opportunities for women in manufacturing, and I hope that 
we can work with you in the future to promote these goals.
    Thank you for the opportunity to testify today. I look forward to 
working with you to build the next manufacturing workforce generation.
                               __________
                  Prepared Statement of Darlene Miller
    Thank you Congressman Brady and Senator Klobuchar for inviting me 
here today and for giving me the opportunity to present my own views on 
manufacturing to include the importance of encouraging more women into 
this field.
    My personal experience comes from owning a precision machining job 
shop since 1993/94. I left the corporate world in 1992 based on a 
handshake from the then current owner of Permac Industries to take the 
position of outside sales. Was I scared--yes--but ready for a new 
opportunity especially given the fact the current owner where I had 
been employed for thirteen years had stated ``women'' do not need to 
earn as much as men . . . What I didn't know at the time was Permac 
Industries was in serious financial trouble with their bank. When this 
was brought to my attention--I truly believed I could turn the company 
around and therefore purchased 45% within nine months and the balance 
less than nine months later.
    I got great advice from my new bank--the president chose to mentor 
me which was so helpful! He told me--``always surround yourself with 
smarter than average people'' and ``pay them a little more than the 
norm.'' Truly I believe without having this man as a mentor, I might 
not have been nearly as successful. He helped me to believe I could. It 
didn't matter to him I was a woman in a male-dominated field--it wasn't 
about that--it was all about skill and talent and passion to learn. He 
also helped me continuously to grow beyond my comfort zone. At his 
retirement party, I found out I was one of many he helped. This support 
and mentorship--be it from a man or a woman--I believe is truly needed 
to help women become successful especially in male-dominated fields.
    Manufacturing has been very rewarding and exciting for me. We at 
Permac make very cool and difficult parts. These components go into 
airplanes, medical devices, submarines, robots, food and beverage 
items, and yes even on motorcycles--just to name a few industries we 
serve!
    My company started with 7 people, 7,000 square feet, $700,000 in 
sales and today we are 34 people, 34,000 square feet and close to 5 
million in sales. We continue to innovate and practice lean and stretch 
beyond our original core skills by hiring women and men in positions 
such as assemblers, clean room specialists, machinists, purchasing 
managers, quality technicians and managers, human resource managers, 
accounting managers, and inside and outside sales persons! We believe a 
good mix of women and men in our company utilizes everyone's skill sets 
to the maximum plus we do not want to leave any talent source untapped.
    I have hired those ``smart'' women and men the bank president 
suggested and together we have won numerous awards together such as the 
SBA Small Business Person of the Year Award for the State of Minnesota, 
2008 U.S. Chamber Small Business of the Year for the entire U.S. along 
with many others! We are always ``pushing'' ourselves to be the best 
and my employees deserve the credit and recognition for going above and 
beyond every single day!
    Due to these recognitions, I was chosen to serve on the Presidents 
Council for Jobs and Competitiveness in 2011-2012. We at Permac had 
difficulty filling CNC machinist's positions for the last 20 years and 
in fact had actually searched for a CNC Swiss machinist for over two 
years before finding a skilled candidate to fill the position. 
Unfortunately, skilled positions in our company and in many of my 
colleagues companies remain unfilled for months which adversely affect 
our ability to grow and manufacture more products. I now had the 
opportunity to help create a change. Having the honor of co-chairing 
the High Tech Education sub-committee, I created a program properly 
named Right Skills Now by partnering with NAM, NIMS, ACT, PMPA and two 
colleges in Minnesota. RSN is a 24 week--fast track--stackable 
credentialed program with 16 weeks classroom/lab and 8 weeks internship 
to train men and woman to become CNC Machinists. I am proud to say this 
program is constantly expanding--now in 8 states and approximately 15 
schools and continues to grow weekly! Our success rate in Minnesota is 
99% for continued employment after the 24 weeks and nationally it is 
91% for job placement and/or continuing education! Permac employs three 
of these students and will continue to hire them as they graduate RSN 
and encourage continued education. A Get Skills to Work program was 
developed based on RSN for returning veterans and their families with 
plans to roll out in 10 cities in 2013. Amazing to think by working in 
partnership with our trade associations such as PMPA and our colleges, 
we can make such a huge difference in manufacturing as these men and 
women in many cases had no concept of what a manufacturing job was all 
about--other than the fact 600,000 jobs openings exist today.
    As a woman leader in Manufacturing, I have a passion to encourage 
others into the manufacturing field. Recently I spoke at an event where 
high school seniors from several schools attended to learn about 
manufacturing. I left them with this message. We females actually have 
an advantage in our industry. We think differently. Critically. Our 
asking why leads to improvements and efficiencies in our processes. Our 
attention to detail helps minimize mistakes and our passion helps keep 
everyone motivated and working towards the same goal. I also explained 
how manufacturing is not dark, dirty and dangerous and how we all need 
to change the perception that being an engineer or in manufacturing is 
for girls too. It's exciting that we now have more women graduating 
colleges than our male counterparts but we need to start earlier with 
the introduction of these career paths. I also told the story of when I 
took ownership of my company, our Quality Director decided to leave the 
company as he stated ``a woman could never make it in this business.'' 
Well I guess I proved him wrong. I encouraged these young women to also 
prove they could!
    I feel it is critical that I help mentor women and girls to help 
them realize they can excel in any career they choose and try to drive 
away the stereotypical thoughts that some of the jobs are only for men! 
I personally became involved in a mentoring program named Hope for 
Tomorrow for 8th and 9th grade girls in 1998 and after a couple years 
mentoring, determined we needed to expand into more schools to help 
make a difference in additional girls' lives. Under my year as Board 
Chair, we grew to 13 schools, obtained our 501C3 status and created a 
defined curriculum and toolbox to help expand their horizons and to 
help them to understand--their journey is what they make of it and they 
are capable of any career. We explain our roles and careers and expose 
them to many career choices they didn't even know exist. We encourage 
them to believe they are more capable then they ever thought they were 
and in encouraging and mentoring them--so they flourish! One young 
woman I personally mentored had decided early in our sessions she would 
not go on to higher education of any sort as her culture typically 
dictates getting married right after high school. We were coming back 
from a field trip after a college visit and she said staring straight 
ahead and very positively--``I can do this--I can go to college--I can 
be what I want to be and I am going to!'' The feeling of knowing I had 
changed one person's life to a better path is experienced by many of 
our mentors every year but every time it happens it feels more 
wonderful than the last! This mentorship continues throughout high 
school and the mentees come back to mentor others. Really it is simply 
exposing girls to all opportunities to include manufacturing!
    I will close with a quote I truly believe in by Margaret Mead--
``Never doubt that a small group of thoughtful, committed citizens can 
change the world; indeed, it's the only thing that ever has.'' It only 
takes one person to make a difference in a person's life and I will 
always try to make that difference!
                               __________
                    Prepared Statement of Amy Jolley
    Good morning, I am Amy Jolley, Vice President of Tax for Noble 
Energy, Inc. Thank you for the invitation to participate in this 
discussion about the role of women in the U.S. manufacturing sector.
                          background on noble
    Noble Energy is a Houston-based independent oil and natural gas 
exploration and production company with a market capitalization of 
approximately $20 billion. Last year we celebrated our 80th 
anniversary. We have roughly 2,500 employees and produce approximately 
250,000 barrels of oil equivalent per day from our operations around 
the world. In 2012, our annual revenues totaled $4 billion.
    At Noble Energy, we operate in five core areas. In the United 
States, we operate in the Marcellus Shale of West Virginia and 
Pennsylvania, the DJ Basin in Colorado, and the deepwater Gulf of 
Mexico. Our international operations include offshore Israel and Cyprus 
in the Eastern Mediterranean, where we have discovered approximately 37 
trillion cubic feet of natural gas resources, which has the potential 
to provide both Israel and Cyprus with energy independence for decades 
to come; and offshore Equatorial Guinea and Cameroon in West Africa. We 
have a very active exploration program; domestically we are exploring a 
new region in Nevada as well as several international locations. In 
2013 our capital spending program is expected be nearly $4 billion--
nearly two-thirds of which will be spent in the U.S.
                        the manufacturing sector
    You may by curious about the connection of the upstream oil and gas 
industry with a classic manufacturing model. Although the industry may 
not be designated as manufacturing by virtue of converting raw 
materials into finished goods, in some ways upstream exploration and 
production activities do constitute a form of manufacturing, and in 
other ways there is significant overlap between manufacturing and 
extractive industries. Having worked in a manufacturing environment for 
several years, I have noted many similarities in terms of the 
challenges facing both the manufacturing and extractive industries in 
the financial, operational, and human resources areas.
    Significant technological advances have allowed the onshore oil and 
gas industry, as a whole, to reinvest its capital and human resources 
for the recovery of hydrocarbons from American basins. But to access 
these hydrocarbons, oil and gas companies frequently follow 
manufacturing, or assembly line, concepts to drill and complete an 
increasing number of wells. As most are aware, a manufacturing 
environment is conducive to a standardized costing approach. As 
processes become more homogenous, safety performance improves, 
efficiencies increase, and costs become standardized. In the upstream 
oil and gas business, we try to capture the same benefits.
    In the operational arena, domestic exploration and production 
companies and manufacturing enterprises have several functions in 
common. Research and development, or product development, is comparable 
to gathering seismic data, and drilling exploration and appraisal 
wells. The sectors share the same considerations with respect to 
procurement, which involves inventory management, supply chain and 
logistics. For example, we must purchase and store huge amounts of 
pipe, casing, tubing and wellheads for our Gulf of Mexico, Colorado, 
Pennsylvania and West Virginia operations. The oil and gas field 
manufacturing process consists of installation, development, and 
production. Logistics and distribution may comprise a separate 
function, or may be contained with marketing, another function that 
operates in a similar way in both sectors.
    The exploration and production industry faces the same challenges 
as traditional manufacturing in regards to recruiting, hiring and 
retaining highly skilled employees needed to run cost-efficient 
businesses. Earlier I mentioned Noble Energy's rapid growth. Of our 
2,500 employees, nearly 400 were added in 2012 alone and we have a 
similar growth profile anticipated for 2013. As we expand, we continue 
to hire outstanding employees, including both experienced individuals 
and new collegiate and high school graduates throughout multiple 
disciplines--technical, operational, informational technology, 
financial, and marketing. Because we are an exploration company, we 
must attract the highest level of talent in the science, technology, 
engineering, and mathematics in order to maintain our commitment to 
excellence. For Noble, this means hiring various types of engineers 
(petroleum, mechanical, reservoir) and geoscientists (geophysicists, 
geologists, petrophysicists), oil and gas economists, and land 
administrators. To further ensure enterprise-wide success, that same 
caliber of employee must be in place in the support functions required 
to run a successful business such as legal, finance and information 
technology.
    Within Noble Energy, our new employees interact with experienced 
mentors and managers as well as with senior and executive management, 
engaging in project assignments, on-the-job projects, and continuing 
education through e-learning and virtual classroom training. Noble is 
motivated by investing in its employees, and offers various development 
programs both within and across disciplines, including a ``Learn, 
Excel, Achieve, Develop'' (or LEAD) program, an accelerated leadership 
track. I'm involved in the latter, and have a female mentee who has 
entered the operational space. It is an amazing opportunity for both of 
us to share multi-functional experiences and learn new facets of the 
business.
                         attracting top talent
    In order to maintain access to top talent, we have strong 
recruiting and internship programs with key colleges and universities 
in our domestic core areas. To capture the attention of these 
individuals, the courtship must start early in their academic careers. 
We involve ourselves in the K-12 curriculum to encourage students and 
help them realize what opportunities are available. For example, we 
have been involved at the high school level through the Junior 
Achievement ``Company Program,'' which requires students to engage in 
an entrepreneurial activity, and participate in ``Finance Park,'' which 
is focused on teaching high school students career and life skills. We 
are heavily involved with Junior Achievement in the Houston area. We 
are in the fifth year of our partnership with Junior Achievement and 
our Chief Operating Officer, Dave Stover, is on the Houston Board of 
Directors.
    The number and percentage of females in managerial and professional 
roles has been increasing at Noble Energy over the past few years, and 
much can be attributed to the larger number of females enrolled in the 
technical disciplines at the universities and colleges where we 
recruit. As Noble Energy continues its growth, it will continue to 
focus on ensuring that the critical level of talent is met regardless 
of gender, but as the number of females with technical degrees 
continues to increase, there will be an inherent increase in the number 
of females in such roles within the company. We tend to recruit at a 
small number of core schools within each of our key disciplines, and we 
are noticing a shift in the number of female graduates within the 
technical geoscience and engineering disciplines. Noble Energy is 
currently bimodal--that is, we have a large number of employees who are 
either in the first few or last few years of their careers. When we 
compare the groups, there is a significant difference between the 
gender and ethnic diversity in the experienced group nearing retirement 
and the new employees. As an example, our summer interns are starting 
to arrive. This week's group of geoscience interns consisted of three 
students, two of which are female.
    As I think of my own role within the company I realize that 15 or 
20 years ago, it would have been unlikely for a female to hold my 
current position. That being said, last week I attended a Houston area 
Chief Tax Officers Forum, and of the attendees, females held the top 
tax position within approximately 25% of local companies. That number 
was approximately 10% just 3-4 years ago, so progress is being made.
    For me, the key to increasing the gender mix across the board in 
the manufacturing sector is to actively inform students of skills 
required to take advantage of great employment opportunities that exist 
in these exciting job fields.
    As a child growing up in rural Iowa, my own parents always led me 
to believe I could do anything I wanted. However, I'm not sure I 
necessarily knew what those choices actually looked like. For example, 
I didn't know what an engineer was, let alone the differences between a 
chemical engineer, a mechanical engineer, and a petroleum engineer. 
That was an Internet age ago, but my own personal philosophy is that 
there are still plenty of girls out there who do not have sufficient 
exposure to the types of careers available and the skills needed in 
order to qualify for those jobs.
    As a mother, I want work options that make life easier for me and 
my family and other two-career families. As a part of its growth 
endeavor, Noble Energy is evaluating and implementing programs and 
tools that will enhance employees' flexibility, which tends to enhance 
productivity and job satisfaction. Many Noble Energy employees will be 
moving to a new headquarters this summer. We are partnering with the 
nearby YMCA to provide extended day care next door to the new facility, 
and will also have onsite food service that will offer takeout options 
for family meals--a great convenience for two-career families who are 
often stretched by the end of the day. With these steps and others such 
as flex time and a focus on work-life balance issues, Noble Energy is 
making a positive difference in the lives and careers of all of its 
employees.
    Having companies actively participate in educational outreach can 
demonstrate the range of careers options available so children can 
pursue targeted educational opportunities. The more opportunities we 
can get in front of our kids, the more we can show them how they can 
bring productivity and economic success to themselves, their families, 
their employers and the United States. I am the mother of two young 
children--a five year old boy and a three year old girl. I want them 
both to understand that the range of opportunities is nearly limitless, 
but also to provide them concrete examples of what their choices might 
be with the talents they have.
    That concludes my remarks. Thank you again for the opportunity to 
participate here today.
  

                                  <all>

</pre></body></html>
